Case: 20-3399

Document: 13-2

Filed: 07/31/2020

Page: 1

No. 20-3399
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JAMES SCOTT, JR.,
Petitioner-Appellant,
v.
NORM ROBINSON, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

FILED
Jul 31, 2020
DEBORAH S. HUNT, Clerk
ORDER

Before: WHITE, Circuit Judge.

James Scott, Jr., a pro se Ohio prisoner, appeals from the district court’s judgment
dismissing his petition for a writ of habeas corpus filed under 28 U.S.C. § 2254. This court
construes Scott’s notice of appeal as an application for a certificate of appealability (“COA”).
Scott also requests permission to proceed in forma pauperis (“IFP”).
In 2005, an Ohio jury convicted Scott of seven counts of trafficking in cocaine and two
counts of possessing cocaine. Prior to sentencing, Scott absconded, and he was not apprehended
until seven years later. In 2012, the trial court sentenced Scott to eighteen years of imprisonment.
On direct appeal, the Ohio Court of Appeals affirmed his convictions and sentence. State v. Scott,
No. CA2012-06-052, 2013 WL 3368856 (Ohio Ct. App. July 1, 2013). Scott did not appeal this
decision to the Ohio Supreme Court.
In 2017, Scott filed a post-conviction motion, alleging errors in his sentencing, and the trial
court denied his motion. The Ohio Court of Appeals affirmed this decision, State v. Scott,
No. CA2017-10-152, 2018 WL 3025800 (Ohio Ct. App. June 18, 2018), and the Ohio Supreme
Court denied further review.
On December 24, 2018, Scott filed his § 2254 petition, alleging several violations of his
constitutional rights. Over Scott’s objections, the district court adopted the magistrate judge’s

Case: 20-3399

Document: 13-2

Filed: 07/31/2020

Page: 2

No. 20-3399
-2report and recommendation, Scott v. Warden, London Corr. Inst., No. l:19-cv-22, 2020
WL 134577 (S.D. Ohio Jan. 13, 2020), and dismissed the petition as untimely. Scott v. Warden,
London Corr. Inst., No. l:19-cv-22, 2020 WL 1428898 (S.D. Ohio Mar. 24, 2020). Additionally,
the district court denied Scott a COA to appeal its decision.
Under 28 U.S.C. § 2253(c)(1)(A), this court will grant a COA for an issue raised in a § 2254
petition only if the petitioner has made a substantial showing of the denial of a federal
constitutional right. A petitioner satisfies this standard by demonstrating that reasonable jurists
“could disagree with the district court’s resolution of his constitutional claims or that jurists could
conclude the issues presented are adequate to deserve encouragement to proceed further.” Buck v.
Davis, 137 S. Ct. 759, 773 (2017) (quoting Miller-El v. Cockrell, 537 U.S. 322, 327, 336 (2003));
see also Slack v. McDaniel, 529 U.S. 473, 484 (2000). When a claim is denied on procedural
grounds, the petitioner must show “that jurists of reason would find it debatable whether the
petition states a valid claim of the denial of a constitutional right and that jurists of reason would
find it debatable whether the district court was correct in its procedural ruling.” Slack, 529 U.S.
at 484.
Reasonable jurists could not disagree with the district court’s conclusion that Scott’s
§ 2254 petition was untimely. A one-year limitations period applies to federal habeas corpus
petitions filed by state prisoners. 28 U.S.C. § 2244(d)(1); Holbrook v. Curtin, 833 F.3d 612, 615
(6th Cir. 2016). This limitations period runs from the latest of four dates—and Scott argues that
the relevant one is “the date on which the factual predicate of the claim or claims presented could
have been discovered through the exercise of due diligence.” See § 2244(d)(1)(D). In deciding
whether the requirements of this provision were met, the court determines when a duly diligent
person in the petitioner’s circumstances should have discovered the claim’s factual predicate. See
Smith v. Meko, 709 F. App’x 341, 344 (6th Cir. 2017); DiCenzi v. Rose, 452 F.3d 465, 470 (6th
Cir. 2006). The operative question in this inquiry is when the petitioner became aware of the vital
facts for the claim, not when he understood their legal significance. Smith, 709 F. App’x at 344.

Case: 20-3399

Document: 13-2

Filed: 07/31/2020

Page: 3

No. 20-3399
-3 As the basis for his § 2254 claims, Scott argues that the trial court failed to make required
findings before imposing consecutive sentences and that his sentence exceeds the maximum term
authorized by law. Scott maintains that he did not discover the factual predicate for these claims
until 2017 and that he filed his § 2254 petition shortly thereafter. However, the factual predicate
for his claims was available to Scott at the time of his sentencing in 2012. Although Scott may
not have understood the legal significance of those facts until 2017, his belated discovery at that
time did not delay the running of the statute of limitations.
Since the provisions of § 2244(d)(1)(D) do not apply to Scott’s petition, the relevant
limitations period for the petition is the date on which his criminal judgment became final by the
conclusion of direct review of his convictions and sentence or the expiration of the time for seeking
such review. See § 2244(d)(1)(A); Holbrook, 833 F.3d at 615. This limitations period is tolled
during the time in which “a properly filed application for State post-conviction or other collateral
review with respect to the pertinent judgment or claim is pending.” See § 2244(d)(2).
Scott did not comply with the § 2244(d) statute of limitations for filing his § 2254 petition.
As noted above, Scott pursued direct review of his convictions and sentence with the Ohio Court
of Appeals, and that court affirmed the trial court’s judgment on July 1, 2013. Scott had 45 days,
until August 15,2013, to file a timely appeal of this decision to the Ohio Supreme Court. See Ohio
Sup. Ct. Prac. R. 7.01(A)(l)(a)(l). It is undisputed that Scott did not appeal to the Ohio Supreme
Court during that period. Therefore, the statute of limitations began to run on August 16, 2013.
With no applicable period of tolling, the statutory period for Scott to timely file a § 2254
petition expired on August 16,2014. While Scott subsequently filed a state post-conviction motion
in 2017, that motion did not toll the running of the statute of limitations because the applicable
one-year period under § 2244(d)(1) already had expired by that time. See Parker v. Renico, 105
F. App’x 16, 18 (6th Cir. 2004) (citing McClendon v. Sherman, 329 F.3d 490, 494 (6th Cir. 2003)).
Scott did not submit his § 2254 petition for filing until December 24,2018, well after the expiration
of the § 2244(d)(1) statute of limitations.

Case: 20-3399

Document: 13-2

Filed: 07/31/2020

Page: 4

No. 20-3399
-4Although he did not timely file his § 2254 petition, Scott argues that the district court
should have equitably tolled the applicable limitations period.

The § 2244(d)(1) statute of

limitations is not a jurisdictional bar and, therefore, is subject to equitable tolling where a habeas
petitioner “shows (1) that he has been pursuing his rights diligently, and (2) that some
extraordinary circumstance stood in his way and prevented timely filing.” Holland v. Florida, 560
U.S. 631, 649 (2010). This court applies equitable tolling sparingly, and Scott bears the burden of
proving that he is entitled to it. See Robertson v. Simpson, 624 F.3d 781, 784 (6th Cir. 2010).
Scott has not met this burden. Scott argues that he has diligently pursued his rights since he learned
of his potential claim. Even accepting Scott’s argument as true, he cites to no extraordinary
circumstance which prevented him from pursuing his claim in a timely manner. Scott’s “pro se
status and lack of knowledge of the law are not sufficient to constitute an extraordinary
circumstance and to excuse his late filing.” See Keeling v. Warden, Lebanon Corr. Inst., 673 F.3d
452, 464 (6th Cir. 2012).
Lastly, Scott asserts that the limitations period should be tolled because he is actually
innocent.

If proven, actual innocence may provide a basis for applying equitable tolling.

McQuiggin v. Perkins, 569 U.S. 383, 386 (2013). A habeas petitioner meets the threshold
requirement for actual innocence only if he demonstrates that, in the light of new evidence, no
reasonable juror would have voted to find him guilty. Id. However, Scott has not made a
substantial showing of actual innocence. He does not rely on any new evidence, and he fails to
argue that he is not guilty of the underlying offense. Rather, he merely repeats his claims about
his allegedly inappropriate sentence. Such an argument does not demonstrate his actual innocence.
Accordingly, Scott’s COA application is DENIED.

His request to proceed IFP is

DENIED as moot.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Deborah S. Hunt
Clerk

100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: May 19,2020

Mr. James Scott Jr.
London Correctional Institution
P.O. Box 69
London, OH 43140
Re: Case No. 20-3399, James Scott, Jr. v. Norm Robinson
Originating Case No. : l:19-cv-00022
Dear Mr. Scott,
The district court has ruled on your motion to reconsider, this court now has jurisdiction to
review your appeal. This appeal has been docketed as case number 20-3399 with the caption
that is enclosed on a separate page. The appellate case number and caption must appear on all
filings submitted to the Court.
The district court has denied or denied in part your motion for pauper status. You have until
June 18, 2020 to either pay the $505.00 appellate filing fee (or the amount stated by the district
court) or file a motion for pauper status on appeal. If you choose to pay the fee, it must be
submitted to the U.S. District Court. If you choose to request leave to proceed on appeal in
forma pauperis, a motion and an accompanying financial affidavit must be submitted to this
court, the U.S. Court of Appeals for the Sixth Circuit. Failure to do one or the other may
result in the dismissal of the appeal without further notice.
For this appeal to proceed, the district court or this court must issue a certificate of
appealability (COA) stating at least one issue for review. If the district court has denied the
COA as to some or all issues, this court will review all issues rejected by the district court. You
do not need to take any further action for this review to occur. However, if you choose to do so,
you may submit one signed motion to grant a COA with this court, stating the issues for review
and why this court should review them. If that is your choice, please do so as soon as
possible. 6th Cir. R. 22(a).
This court's review may take several months. If both the district court and this court deny a
certificate of appealability as to all issues, the appeal cannot proceed and will be closed. 28
U.S.C. § 2253(c).

Case: l:19-cv-00022-DRC-KLL Doc #: 26 Filed: 06/24/20 Page: 1 of 2 PAGEID #: 749

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
JAMES SCOTT JR.,
Petitioner,
Case No. l:19-cv-22
JUDGE DOUGLAS R. COLE
Magistrate Judge Litkovitz

v.

WARDEN, LONDON
CORRECTIONAL INSTITUTION,
Respondent.
ORDER
This action comes before the Court on Petitioner James Scott Jr.’s Motion for
Certificate of Appealability and Request for Leave to Proceed In Forma Pauperis on
Appeal. (Doc. 25). On March 24, 2020, this Court issued an Order (Doc. 17) that
adopted Magistrate Judge Litkovitz’s Report and Recommendation (Doc. 14)
suggesting that the Court deny Scott’s Petition for Writ of Habeas Corpus under 28
U.S.C. § 2254. (Doc. 2). In that Order, the Court denied Scott a Certificate of
Appealability, certified that an appeal would not be taken in good faith, and denied
Scott leave to proceed on appeal in forma pauperis upon a showing of financial
necessity. (Doc. 17 at #701). For the reasons that the Court stated in its previous
Order (see id.), which denied Scott the same relief that he seeks again here, the Court
DENIES Scott’s Motion. (Doc. 25). Scott remains free, however, to request in forma
pauperis status and the issuance of a certificate of appealability from the United
States Court of Appeals for the Sixth Circuit.

/WwJQ/V D-f

Case: l:19-cv-00022-DRC-KLL Doc #: 26 Filed: 06/24/20 Page: 2 of 2 PAGEID #: 750

SO ORDERED.
A

June 24, 2020
DATE

DOUGLAS R. COLE \
UNITED STATES DISTRICT JUDGE

2

CM/ECF LIVE - U.S. District CourtrOHSD

https://ecf.ohsd.circ6.dcn/cgi-bin/Dispatch.pl7842437538650319

Orders on Motions
1:19-cv-00022-DRC-KLL Scott v.
Warden. London Correctional
Institution CASE CLOSED on
03/24/2020

APPEAL,CASREF,HABEAS,LC3,PRO
SE
U.S. District Court
Southern District of Ohio
Notice of Electronic Filing
The following transaction was entered on 6/24/2020 at 10:38 AM EDT and filed on 6/24/2020
Case Name:
Scott v. Warden, London Correctional Institution
Case Number:
1:19-CV-00022-DRC-KLL
Filer:
WARNING: CASE CLOSED on 03/24/2020
Document Number: 26
Docket Text:
ORDER denying [25] Petitioner James Scott Jr.'s Motion for Certificate of Appealability and Request
for Leave to Proceed In Forma Pauperis on Appeal. Signed by Judge Douglas R. Cole on 6/24/20.
(sct)(This document has been sent by regular mail to the party(ies) listed in the NEF that did not
receive electronic notification.)
l:19-cv-00022-DRC-KLL Notice has been electronically mailed to:
Hilda Rosenberg hilda.rosenberg@ohioattomeygeneral.gov, Habeas.DocketClerk@ohioattomeygeneral.gov,
brian.higgins@ohioattomeygeneral.gov, christina.sharp@ohioattomeygeneral.gov,
sandra.firiedman@ohioattomeygeneral.gov
l:19-cv-00022-DRC-KLL Notice has been delivered by other means to:
James Scott, Jr
665-564
LONDON CORRECTIONAL INSTITUTION
RO. Box 69
1580 State Route 56
London, OH 43140
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID= 1040326259 [Date=6/24/2020] [FileNumber=7154525-0
] [325eb4ad4881049ddeadaa60373fbl9bc7f8af6c7e9fa970601a00c0bb400a53bba
869001555f92f283a449ccf87cc4al4f901dd37343ac0cl7d613008560838]]

1 of 1

0~3

6/24/2020, 10:40 AM

,>X. '/

No. 20-3809
UNITED STATES COURT QF APPEALS
FOR THE SIXTH CIRCUIT

FILED

JAMES SCOTT, JR.,

Sep 04, 2020
DEBORAH S. HUNT, Clerk

. )
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
NORM ROBINSON, Warden,
Respondent-Appellee.

ORDER

Before: SILER, MOORE, and BUSH, Circuit Judges.
This matter is before the court upon initial consideration to determine whether this appeal
was taken from an appealable order.
On March 24, 2020, the district court entered its judgment dismissing James Scott, Jr.’s
28 U.S.C. § 2254 petition for a writ of habeas corpus. Scott filed a timely notice of appeal from
that judgment (appeal No. 20-3399). On June 22, 2020, Scott filed a motion for a certificate of
appealability, and the district court denied that motion on June 24, 2020. Scott then filed another
*

notice of appeal, dated July 20, 2020, and docketed in the district court on July 27, 2020. That
appeal was docketed in this court as appeal No. 20-3809, the current appeal. In the second notice
of appeal, Scott states that he is appealing- “the final judgment. .. denying the petition for a writ
of habeas corpus entered in this action on the 24th day of June, 202Q.” The only ruling on June
24,2020, is the order denying the motion for a certificate of appealability.
This court lacks jurisdiction over appeal No. 20-3809 if Scott is attempting to appeal the
order denying his motion for a certificate of appealability. An order denying a motion for a
certificate of appealability is not appealable. Sims v. United States, 244 F.3d 509, 509 (6th Cir.
2001). “The proper procedure when a district court denies a certificate of appealability is for the

(3

No. 20-3809
-2-

petitioner to file a motion for a certificate of appealability before the appellate court in the appeal
from the judgment denying the motion to vacate.” Id. (citing Fed. R. App. P. 22(b)(1)). This court
will decide in appeal No. 20-3399 whether it will grant a certificate of appealability. See Fed. R.
App. P. 22(b). If Scott is attempting to appeal the judgment that dismissed his habeas corpus
petition, this appeal is a duplicate of appeal No. 20-3399.
It is ordered that appeal No. 20-3809 is DISMISSED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case: l:19-cv-00022-DRC-KLL Doc #: 17 Filed: 03/24/20 Page: 1 of 10 PAGEID #: 692

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
JAMES SCOTT JR.,
Petitioner, .
Case No. l:19-cv-22
JUDGE DOUGLAS R. COLE
Magistrate Judge Karen L. Litkovitz

v.

WARDEN, LONDON
CORRECTIONAL INSTITUTION,
Respondent.
OPINION & ORDER
This cause comes before the Court on Petitioner James Scott Jr.’s Objections
(Doc. 16) to the Magistrate Judge’s Report and Recommendation (“R&R”) (Doc. 14)
suggesting the Court deny Scott’s 28 U.S.C. § 2254 Petition for Writ of Habeas Corpus
(Doc. 2) as time-barred under 28 U.S.C. § 2241(d)(1). For the reasons below, the Court
OVERRULES Scott’s Objections (Doc. 16), ADOPTS the Magistrate Judge’s R&R
(Doc. 14), and DENIES Scott’s Section 2254 Petition (Doc. 2).

BACKGROUND
On February 25, 2005, a Warren County grand jury returned a nine-count
indictment charging Scott with seven counts of cocaine trafficking and two counts of
cocaine possession. (State Record, Ex. 1, Doc. 8, #37-52). Scott pled not guilty on all
counts. {Id., Ex. 2, #53).
Scott then proceeded to a jury trial. {Id., Ex. 4, #72). After the jury began
deliberating and before entering a verdict, Scott absconded. (Ex. 4, #72). The jury
then found Scott guilty on all charges. {Id., Ex. 3, #54—71).

Case: l:19-cv-00022-DRC-KLL Doc #: 17 Filed: 03/24/20 Page: 2 of 10 PAGEID #: 693

Seven years later, authorities apprehended Scott and returned him to Warren
County for sentencing for the cocaine possession and trafficking charges. (Id., Ex. 5,
#73-75). On May 30, 2012, the Warren County Court of Common Pleas sentenced
Scott to 18 years of imprisonment. (Id.).
Two weeks later, on June 13, 2012, Scott (through new counsel) filed a notice
of appeal to the Twelfth District Court of Appeals. (Id., Ex. 6, #76—82). He raised three
assignments of error:
1.

Appellant’s trial counsel was ineffective and appellant was
prejudiced thereby.

2.

The trial court erred in overruling appellant’s motion for criminal
rule 29 acquittal when venue was not established as to counts one
(1) through five (5) of the indictment.

3.

The trial court erred in imposing a sentence on count one (1) that
exceeded the applicable sentencing range for the conviction.

(Id., Ex. 7, #86).
On July 1, 2013, the Twelfth District overruled Scott’s assignments of error
and affirmed the judgment of the trial court. (Id., Ex. 11, #160-84). Scott did not seek
review by the Supreme Court of Ohio.
More than four years later, on August 2, 2017, Scott (on his own behalf) filed a
“Motion to Correct Void Sentence and/or Judgment” in the Warren County Court of
Common Pleas. (Id., Ex. 12, #185-90). (The Magistrate Judge in his R&R concluded
that this second round of state filings constituted Scott seeking post-conviction relief.
Scott seems to agree with this characterization, as he refers to this August 2017 filing
as proof that he diligently pursued relief in “State ... Habeas Court.” (Scott Obj. at 7,

2

Case: l:19-cv-00022-DRC-KLL Doc #: 17 Filed: 03/24/20 Page: 3 of 10 PAGEID #: 694

#686).) About a month later, on September 5, 2017, the Warren County Court denied
Scott’s motion for post-conviction relief, concluding that res judicata barred the legal
issues he raised. (Id., Ex. 14, #201). Fifty-three days later, on October 27, 2017, Scott
filed a notice of appeal and a “Motion for Leave to File Delayed Appeal” to the Twelfth
District Court on October 27, 2017. (Id., Exs. 15—17, #202—09). The reason he sought
leave to file this appeal as “delayed” was that his notice of appeal was outside the 30day window that Ohio law provides for appealing final judgments. The appeals court,
however, denied Scott’s motion for leave on December 7, 2017, finding that, because
the trial court clerk had never properly served Scott with the trial court’s decision
Scott’s appeal was timely and so Scott did not need leave to file a delayed appeal after
all. (Id., Ex. 18, #210).
Scott then filed his merit brief in his post-conviction proceedings with the
Twelfth District, asserting a single assignment of error:
Trial court erred by failing to make the requisite statutory findings
pursuant to [Ohio Revised Code §] 2929.14(C)(4), prior to imposing
consecutive sentencing, violating appellant’s right of due process of law,
as guaranteed by the 5th and 14th Amendments], United States
Constitution; Section 16, Article 1, Ohio Constitution.
(Id., Ex. 19, #214).
On June 18, 2018, the Twelfth District overruled Scott’s assignment of error
and affirmed the Warren County Common Pleas Court’s judgment. (Id., Ex. 22, #238—
43). Scott then asked the Twelfth District to reconsider its decision, which the court
denied on September 12, 2018. (Id., Exs. 23-25, #244—51).

3

Case: l:19-cv-00022-DRC-KLL Doc #: 17 Filed: 03/24/20 Page: 4 of 10 PAGEID #: 695

Less than a month later, on October 5, 2018, Scott filed a pro se notice of appeal
to the Supreme Court of Ohio. (Id., Ex. 26, #252-53). In his memorandum in support
of jurisdiction, Scott raised a single proposition of law, which mirrored the
assignment of error that he had recently asserted in the Twelfth District (Id., Ex. 27,
#255). On December 12, 2018, the Supreme Court of Ohio declined to exercise
jurisdiction over Scott’s case. (Id., Ex. 29, #271).
Later that month, on December 24, 2018, Scott initiated this federal habeas
action. He raises two grounds for relief:
GROUND ONE: Due Process, as guaranteed by the 5th and 14th
Amendment[s], United States Constitution, violated; Sect. 16, Art. 1,
Ohio violated, Trial Court’s failure to make the requisite statutory
findings pursuant to [Ohio Revised Code §] 2929.14(C)(4), prior to
imposing consecutive sentencing.
GROUND TWO: Due Process, as guaranteed by the 5th and 14th
Amendments], United States Constitution violated; Sect. 16, Ar. 1, Ohio
Constitution, Sentence exceeds term authorized by law.
(Scott’s Pet., Doc. 2, #6-7). After Respondent Warden of London Correctional
Institution filed a Writ in Opposition to Scott’s Petition (Doc. 9), Scott filed a Reply
(Doc. 12).
On January 13, 2020, the Magistrate Judge issued an R&R advising the Court
to deny Scott’s Petition as untimely under 28 U.S.C. § 2244(d)(1) because: (1) Scott
filed his Petition after the statute of limitations expired on August 16, 2014; and
(2) no statutory or equitable tolling applies here. (R&R at 4—7, #668—71). Scott then
timely filed an Objection. (Doc. 16).

4

Case: l:19-cv-00022-DRC-KLL Doc #: 17 Filed: 03/24/20 Page: 5 of 10 PAGEID #: 696

LEGAL STANDARD
If a party objects to a report and recommendation within the allotted time, the
district court must review de novo any portion of the magistrate judge’s report “that
has been properly objected to.” Fed. R. Civ. P. 72(b); 28 U.S.C. § 636(b)(1). Here, the
petitioner is proceeding pro se. While a pro se litigant’s pleadings are to be construed
liberally and have been held to less stringent standards than formal pleadings filed
by attorneys, Haines v. Kerner, 404 U.S. 519, 520—21 (1972), pro se litigants must
still comply with the procedural rules that govern civil cases. McNeil v. United States,
508 U.S. 106, 113 (1993).
LAW & ANALYSIS
A.

The Statute of Limitations
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”)

provides that a one-year period of limitation applies to a petition for writ of habeas
corpus filed “by a person in custody pursuant to the judgment of a State court.” 28
U.S.C. § 2244(d)(1). The limitations period starts to run at the latest of four possible
occurrences. Id. Here, the Magistrate Judge concluded that the first of the four events
listed in the statute occurred last in this case, and thus was the event that triggered
the limitations period. More specifically, that event is “the date on which the
judgment became final by the conclusion of direct review or the expiration of the time
for seeking such review.” Id. § 2244(d)(1)(A). The Magistrate Judge concluded that
this event occurred for Scott on August 15, 2013. That was when the 45-day period
expired for Scott to seek review in the Ohio Supreme Court of the Twelfth District’s
July 1, 2013 judgment that had dismissed his appeal challenging his conviction and
5

Case: l:19-cv-00022-DRC-KLL Doc #: 17 Filed: 03/24/20 Page: 6 of 10 PAGEID #: 697

sentence. (R&R at 5, #669). Thus, the statute of limitations for Scott to file his habeas
petition began running on August 16, 2013, the next business day after the sentence
became final. (Id. (citing Fed. R. Civ. P. 6(a); Bronaugh v. Ohio, 235 F.3d 280, 285
(6th Cir. 2000))). The limitations period thus expired one year later, on August 16,
2014.
Moreover, the Magistrate Judge specifically found that the fourth possible
event listed in Section 2244(d)(1)—“the date on which the factual predicate of the
claim or claims presented could have been discovered through the exercise of due
diligence” 28 U.S.C. § 2244(d)(1)(D)—either did not occur at all or, alternatively,
occurred before—i.e., not later than—the close of Scott’s direct review in state court
on August 15, 2013, and thus was not the applicable triggering event. (Id.). In that
regard, the Magistrate Judge concluded that Scott bases his habeas relief on alleged
errors that occurred during sentencing, errors about which Scott was then aware.
(R&R at 5, #669). The Magistrate Judge further explained that, even if Scott did not
know the predicate facts regarding the alleged sentencing errors at the time of that
proceeding, he would have discovered those facts before the close of his direct appeal
had he exercised due diligence. (Id.).
In his objection to the Magistrate Judge’s R&R, Scott takes issue with the
Magistrate Judge’s conclusion that the fourth statutory circumstance is not the
relevant triggering event. First, Scott argues that he discovered the full nature of his
claim’s factual predicate only on August 2, 2017, when he filed his Motion to Correct
Void Sentence and/or Judgment in the Warren County Court of Common Pleas.

6

Case: l:19-cv-00022-DRC-KLL Doc #: 17 Filed: 03/24/20 Page: 7 of 10 PAGEID #: 698

(Scott’s Obj. at 7, #686). Second, he claims that the fourth circumstance applies
because he exercised due diligence in seeking habeas relief in state and federal courts.
Both objections lack merit.
Consider Scott’s first objection: his claim that he discovered the full nature of
his habeas Petition’s factual predicate on August 2, 2017, the date when he applied
for state post-conviction relief. While he asserts this is true, Scott does not proffer any
specific facts that he discovered on or around that date. Rather, he focuses on alleged
legal errors that the trial court committed when sentencing him in May 2012. For
example, Scott discusses specific Ohio statutes, rules for criminal procedure, and case
law, all of which pertain to sentencing. (Scott Obj. at 4—6, #683—85). In doing so, Scott
essentially reiterates his legal arguments for habeas relief, which, the Court notes,
mirror his first and second rounds of appellate review in the Ohio courts (as further
evidenced by the state trial and intermediate appellate courts’ conclusions that his
post-conviction arguments were barred by res judicata). Since Scott has not proffered
any newly discovered facts for the Court to analyze under Section 2244(d)(1)(D), the
Court construes the factual predicate of Scott’s habeas relief to include only his
sentencing proceedings before the state trial court in May 2012. As those proceedings
of course occurred before the state appellate court reviewed them and entered
judgment, Section 2244(d)(1)(D) was not the last of the four statutory circumstances
to occur. Rather, the first of those circumstances, i.e., the date when his sentence
became final (August 15, 2013), was the last to take place. Thus, absent any tolling,

7

Case: l:19-cv-00022-DRC-KLL Doc #: 17 Filed: 03/24/20 Page: 8 of 10 PAGEID #: 699

Scott’s statute of limitations commenced on August 16, 2013, and expired on August
16, 2014.
B.

The Equitable And Statutory Tolling Doctrines Do Not Apply Here.
In certain circumstances, statutory and equitable tolling apply to the AEDPA’s

limitations period. Holland v. Florida, 560 U.S. 631 (2010); 28 U.S.C. § 2244(d)(2). Of
particular relevance here, under 28 U.S.C. § 2244(d)(2), the limitations period for
filing a federal habeas petition is statutorily tolled during the pendency of a “properly
filed application for State post-conviction relief or other collateral review.” Id.
In the R&R, the Magistrate Judge concluded that Section 2244(d)(2) does not
apply here because, although a properly filed application for state post-conviction
relief may statutorily toll the limitations period, it can neither revive that period once
it has already expired, nor otherwise impact the date when a petitioner’s conviction
became final under Section 2244(d)(1). (R&R at 5 n.2, #669 (citing Vroman v. Brigano,
346 F.3d 598, 602 (6th Cir. 2003))). For the reasons discussed above, Scott’s
limitations period expired on August 16, 2014, and he filed his State application for
post-conviction relief more than three years later. Thus, the Magistrate Judge found
that tolling under Section 2244(d)(2) could not be of assistance to Scott.
Scott objects to the Magistrate Judge’s conclusion. He claims that Section
2244(d)(2) does in fact apply because he timely filed his application for State post­
conviction relief. (Scott Obj. at 9, #688). Even accepting that assertion as true,
however, whether Scott properly filed that application on August 2, 2017 is of no
consequence here. Rather, the issue is whether Scott properly filed his state

8

Case: l:19-cv-00022-DRC-KLL Doc #: 17 Filed: 03/24/20 Page: 9 of 10 PAGEID #: 700

application before August 16, 2014—the date on which the limitations period for
seeking federal habeas relief otherwise expired. As there is no dispute that he did not
file his State application until August 2, 2017, Section 2244(d)(2) offers Scott no
support for his statutory tolling argument here.
Nor, as the Magistrate Judge correctly concluded, does equitable tolling bridge
that gap. (R&R at 7-8, #671-72). Equitable tolling of the AEDPA’s limitations period
“allows courts to toll a statute of limitations when a litigant’s failure to meet a legallymandated deadline unavoidably arose from circumstances beyond that litigant’s
control.” Robertson v. Simpson, 624 F.3d 781, 783 (6th Cir. 2010) (internal quotation
marks omitted). Courts grant this remedy “sparingly.” Id. at 784. The party seeking
equitable tolling bears the burden of proving that he is entitled to it. Id. To do so, a
habeas petitioner must show that: (1) he has pursued his rights diligently, and (2) an
extraordinary circumstance prevented timely filing. Id.
The Magistrate Judge determined that, because Scott waited more than five
years after his conviction and sentence became final—from August 16, 2013 until
December 24, 2018—to file his federal habeas petition, he cannot now claim to have
diligently pursued his federal rights. (R&R at 8, #672 (citing Vroman, 346 F.3d at
605)). Thus, the Magistrate Judge concluded that Scott is not entitled to equitable
tolling.
In his Objection, Scott disagrees but does not explain how or why the Court
can or should overlook his five-year delay in filing the federal habeas petition. He
bears the burden of showing that he diligently pursued his rights, and yet has offered

9

Case: l:19-cv-00022-DRC-KLL Doc#: 17 Filed: 03/24/20 Page: 10 of 10 PAG El D #: 701

no justification for missing his federal petition deadline by more than five years.
Accordingly, the Court concludes that Scott has not established that he is entitled to
equitable tolling.
The deadline for Scott to file his Petition was August 16, 2014. He instead filed
on December 28, 2019. Thus, the Petition (Doc. 2) is time-barred.
CONCLUSION
For the reasons above, the Court OVERRULES Scott’s Objections (Doc. 16),
ADOPTS the Magistrate Judge’s R&R (Doc. 14), and DENIES WITH PREJUDICE
Scott’s Petition (Doc. 2). Moreover, as the Magistrate Judge further recommended,
the Court DENIES Scott a certificate of appealability with respect to any claims Scott
alleges in his Petition since “jurists of reason” would not disagree with the Court’s
procedural ruling here. Finally, the Court CERTIFIES that an appeal of this Order
would not be taken in good faith, and thus, DENIES Scott leave to appeal in forma
pauperis upon a showing of financial necessity.
SO ORDERED.

March 24, 2020
DATE

DOUGLAS R. COLE \
UNITED STATES DISTRICT JUDGE

10

https://ecf.ohsd.uscourts.gov/docl/14318020450

CM/ECF LIVE - U.S. District Court:OHSD-CM/ECF LIVE - U.S....

Query

1 of 2

Reports

Utilities

Help

Log Out

2/16/2021, 11:15 AM

CM/ECF LIVE - U.S. District Court:OHSD-CM/ECF LIVE - U.S....

https://ecf.ohsd.uscourts.gov/docl/14318020450

Case: l:19-cv-00022-DRC-KLL Doc #: 24 Filed: 05/18/20 Page: 4 of 4 PAGEID #:

his Notice of Appeal has now effectively divested this Court of jurisdiction over1
case. Id.
SO ORDERED.
i

May 18, 2020
DATE

i
DOUGLAS R. COLE V
UNITED STATES DISTRICT JUI

!
I

I

!
I

2 of 2

2/16/2021, 11:15 AM

Case: l:19-cv-00022-DRC-KLL Doc #: 14 Filed: 01/13/20 Page: 1 of 10 PAGEID #: 665

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
JAMES SCOTT, JR.,
Petitioner,

Case No. 1:19-cv-22
Cole, J.
Litkovitz, M.J.

vs.
WARDEN, LONDON
CORRECTIONAL INSTITUTION,
Respondent.

REPORT AND
RECOMMENDATION

Petitioner, an inmate in state custody at the London Correctional Institution, has filed a
pro se petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254. (Doc. 2). This matter is
before the Court on respondent’s return of writ (Doc. 9) and petitioner’s reply. (Doc. 12). For
the reasons stated below, the undersigned recommends that the petition be denied on the ground
that it is time-barred pursuant to 28 U.S.C. § 2241(d)(1).
I. PROCEDURAL HISTORY
State Trial Proceedings
On February 25, 2005, the Warren County, Ohio, grand jury returned a nine-count
indictment charging petitioner with seven counts of trafficking in cocaine and two counts of
possession of cocaine. (Doc. 8, Ex. 1). Petitioner entered a not guilty plea. (Doc. 8, Ex. 2).
Following a jury trial, petitioner was found guilty on all counts charged in the indictment.
(Doc. 8, Ex. 4). However, after the case was submitted to the jury for deliberation, but prior to
the verdict petitioner absconded. (See Doc. 8, Ex. 11 at PagelD 163). Petitioner was
apprehended seven years later and returned to Warren County for sentencing. (Id.). On June 5,
2012, petitioner was sentenced to a total aggregate prison sentence of 18 years in the Ohio
Department of Corrections. (Doc. 8, Ex. 5).

Case: l:19-cv-00022-DRC-KLL Doc #: 14 Filed: 01/13/20 Page: 2 of 10 PAGEID #: 666

Direct Appeal
On June 13 , 2012, petitioner, through new counsel, filed a notice of appeal to the Ohio
Court of Appeals. (Doc. 8, Ex. 6). Petitioner raised the following three assignments of error in
his merit brief:
1. Appellant’s trial counsel was ineffective and appellant was prejudiced thereby.
2. The trial court erred in overruling appellant’s motion for criminal rule 29
acquittal when venue was not established as to counts one (1) through five (5)
of the indictment.
3. The trial court erred in imposing a sentence on count one (1) that exceeded the
applicable sentencing range for the conviction.
(Doc. 8, Ex. 7). On July 1, 2013, the Ohio Court of Appeals overruled petitioner’s assignments
of error and affirmed the judgment of the trial court. (Doc. 8, Ex. 11).
Petitioner did not seek review of the decision in the Ohio Supreme Court.
Motion for Post-Conviction Relief
On August 2, 2017, more than four years later, petitioner filed a “Motion to Correct Void
Sentence and/or Judgment.” (Doc. 8, Ex. 12). On September 5, 2017, the trial court determined
the motion was barred by the doctrine of res judicata. (Doc. 8, Ex. 14).
On October 27, 2017, petitioner filed a notice of appeal and motion for leave to file a
delayed appeal. (Doc. 8, Ex. 15-17). On December 7, 2017, the Ohio Court of Appeals denied
petitioner’s motion for leave to file a delayed appeal as unnecessary because the trial court
decision was not properly served and accepted the appeal as being timely filed. (Doc. 8, Ex. 18).
In his merit brief, petitioner asserted the following single assignment of error:
Trial court erred by failing to make the requisite statutory findings pursuant to
O.R.C. 2929.14(C)(4), prior to imposing consecutive sentencing, violating
2

Case: l:19-cv-00022-DRC-KLL Doc #: 14 Filed: 01/13/20 Page: 3 of 10 PAGEID #: 667

appellant’s right of due process of law, as guaranteed by the 5th and 14th
Amendment, United States Constitution; Section 16, Article 1, Ohio Constitution.
(Doc. 8, Ex. 19), On June 18,2018, the Ohio appeals court Overruled petitioner’s assignment of
error and affirmed the judgment of the trial court. (Doc. 8, Ex. 22). Petitioner unsuccessfully
sought reconsideration of the decision. (Doc. 8, Ex. 23-25).
On October 5, 2018, petitioner filed a pro se notice of appeal to the Ohio Supreme Court.
(Doc. 8, Ex. 26). Petitioner raised the following single proposition of law in his memorandum in
support of jurisdiction:
Appellant’s rights of Due Process, as guaranteed by the 5th and 14th Amendments,
United States Constitution; Section 16, Article 1, Ohio Constitution violated, by
Trial Court’s failure to make the requisite Statutory findings pursuant to R.C.
2929.14(C)(4), prior to imposing consecutive sentencings.
(Doc. 8, Ex. 27). On December 12,2018, the Ohio Supreme Court declined to accept
jurisdiction over the appeal. (Doc. 8, Ex. 29).
Federal Habeas Corpus
On December 24,2018, petitioner commenced the instant federal habeas corpus action. i
Petitioner raises the following two grounds for relief in the petition:
GROUND ONE: Due Process, as guaranteed by the 5th and 14th Amendment,
United States Constitution, violated; Sect. 16, Art. 1 Ohio violated, Trial Court’s
failure to make the requisite statutory findings pursuant to R.C. 2929.14(C)(4),
prior to imposing consecutive sentencing.
GROUND TWO: Due Process as guaranteed by the 5th and 14th Amendments,
United States Constitution violated, Sect. 16, Article I, Ohio Constitution, Sentence
i

The petition was filed with the Court on January 7, 2019. (See Doc. 1). Petitioner avers, however, that he placed
the petition in the prison mailing system for delivery to the Court on December 24, 2018. (See Doc. 2 at PagelD
15). Because under Houston v. Lack, 487 U.S. 266 (1988), the filing date of a federal habeas corpus petition
submitted by a pro se prisoner is the date on which the prisoner provides his papers to prison authorities for mailing,
see In re Sims, 111 F.3d 45, 47 (6th Cir. 1997), it is presumed that the petition was “filed” on December 24, 2018.

3

Case: l:19-cv-00022-DRC-KLL Doc #: 14 Filed: 01/13/20 Page: 4 of 10 PAGEID #: 668

exceeds term authorized by law. Sentence term exceeds the maximum sentence
authorized by law.
(Doc. 2 at PagelD 6-7).
Respondent has filed a return of writ in Opposition to the petition, to which petitioner has
replied. (Doc. 9, 12). According to respondent, petitioner’s grounds for relief are time-barred,
not cognizable, and procedurally defaulted.
II. THE PETITION SHOULD BE DENIED.
Under 28 U.S.C. § 2244(d)(1), as amended by § 101 of the Antiterrorism and Effective
Death Penalty Act of 1996 (AEDPA), Pub. L. No. 104-132, 110 Stat. 1214, a person in custody
pursuant to the judgment of a state court must file an application for a writ of habeas corpus
within one year from the latest of:
(A) the date on which the judgment became final by the conclusion of direct review
or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by State action
in violation of the Constitution or laws of the United States is removed, if the
applicant was prevented from filing by such State action;
(C) the date on which the constitutional right asserted was initially recognized by
the Supreme Court, if the right has been newly recognized by the Supreme Court
and made retroactively applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims presented could
have been discovered through the exercise of due diligence.
28 U.S.C. § 2244(d)(1). Under 28 U.S.C. § 2244(d)(2), the limitations period is tolled during the
pendency of a properly filed application for state post-conviction relief or other collateral review.
There is no evidence in the record in this ease to suggest that the provisions set forth in
§§ 2244(d)(1)(B) through (D) apply to petitioner’s grounds for relief. Petitioner has not alleged
4

Case: l:19-cv-00022-DRC-KLL Doc #: 14 Filed: 01/13/20 Page: 5 of 10 PAGEID #: 669

that a State created impediment prevented him from filing the instant petition or that his claims
are governed by a rtewly recognized constitutional right made retroactively applicable to his
case. Furthermore, petitioner’s grounds for habeas relief are based on alleged errors that
occurred during sentencing. Because petitioner was aware of the facts underlying his claims or
the claims could have been discovered through the exercise of due diligence by the close of the
direct review, his grounds for relief are governed by the one-year statute of limitations set forth
in 28 U.S.C. § 2244(d)(1)(A), which began to run when petitioner’s conviction became final “by
the conclusion of direct review or the expiration for the time for seeking such review.”
In this case, petitioner’s conviction and sentence became final on August 15, 2013, upon
the expiration of the 45-day period for filing an appeal as of right from the court of appeals’ July
1, 2013 judgment entry dismissing his appeal. See Ohio Sup. Ct. Prac. R. 7.01(A)(l)(a)(l). See
also Gonzalez v. Thaler, 565 U.S. 134, 149-52 (2012) (holding that because the petitioner did not
appeal to the State’s highest court, his conviction became final under § 2244(d)(1)(A) “when his
time for seeking review with the State’s highest court expired”). The statute commenced
running on August 16, 2013, the next business day after petitioner’s conviction became final, see
Fed. R. Civ. P. 6(a); Bronaugh v. Ohio, 235 F.3d 280, 285 (6th Cir. 2000), and expired one year
later on August 16, 2014, absent the application of statutory or equitable tolling principles.2
During the one-year limitations period, petitioner was entitled to tolling of the statute

2 Petitioner argues that the limitations period did not begin to run until the Ohio Supreme Court denied his appeal
from his motion to correct void sentence on December 12, 2018. (See Doc. 12 at PagelD 647-49). However, as
discussed below, while a properly filed application for state post-conviction relief may statutorily toll the limitations
period, it does not revive the limitations period once it has expired or otherwise impact date on which petitioner’s
conviction became final under 28 U.S.C. § 2244(d)(1). See Vroman v. Brigcmo, 346 F.3d 598, 602 (6th Cir. 2003).
For the reasons stated above, petitioner’s conviction and sentence became final, pursuant to 28 U.S.C. §
2244(d)(1)(A), upon the conclusion of direct review.

5

Case: l:19-cv-00022-DRC-KLL Doc #: 14 Filed: 01/13/20 Page: 6 of 10 PAGEID #: 670

under 28 U.S.C. § 2244(d)(2) based on any pending “properly filed” applications for state post­
conviction relief or other collateral review. See 28 U.S.C. § 2244(d)(2); see also Holland v.
Florida, 560 U.S. 631, 635 (2010); Allen v. Siebert, 552 U.S. 3, 4 (2007) (per curiam); Vroman
v. Brigano, 346 F.3d 598, 602 (6th Cir. 2003). “The tolling provision does not, however,
‘revive’ the limitations period (i.e., restart the clock at zero); it can only serve to pause a clock
that has not yet fully run.” Vroman, 346 F.3d at 602 (quoting Rashid v. Khulmarin, 991 F. Supp.
254,259 (S.D.N.Y. 1998)). Once the limitations period is expired, state collateral review
proceedings can no longer serve to avoid the statute-of-limitations bar. Id.
It is well-settled that a state application for post-conviction relief is “properly filed”
within the meaning of § 2244(d)(2) “when its delivery and acceptance are in compliance with the
applicable laws and rules governing filings,” such as those prescribing the time limits for filing.
Ariuz v. Bennett, 531 U.S. 4, 8 (2000). State post-conviction or collateral review applications
rejected by the state courts on timeliness grounds are not “properly filed” and, therefore, are not
subject to statutory tolling under § 2244(d)(2). See Allen, 552 U.S. at 5-6; see also Pace v.
DiGuglielmo, 544 U.S. 408, 413-14 (2005); Vroman, 346 F.3d at 603.
No statutory tolling applies under Section 2244(d)(2) to extend the limitations period in
this case. The statute of limitations had run for 1,447 days before petitioner filed his August 2,
2017 post-conviction motion. Because petitioner’s motion was filed after the one-year statute of
limitations had already expired, statutory tolling would not serve to extend the limitations period.
Vroman, 346 F.3d at 602. Therefore, petitioner is not entitled to statutory tolling based on the
untimely application. See Allen, 552 U.S. at 5-6; see also Pace, 544 U.S. at 413-14; Vroman,
346 F,3d at 603.
6

Case: l:19-cv-00022-DRC-KLL Doc #: 14 Filed: 01/13/20 Page: 7 of 10 PAGEID #: 671

The AEDPA’s statute of limitations is Subject to equitable tolling, see Holland, 560 U.S.
at 645, “when a litigant’s failure to meet a legally-mandated deadline unavoidably arose from
circumstances beyond the litigant’s control.” Hall v. Warden, Lebanon Corr. Inst., 662 F.3d
745, 749 (6th Cir. 2011) (quoting Robertson v. Simpson, 624 F.3d 781, 783 (6th Cir. 2010)).
Equitable tolling is granted “sparingly.” Id. (quoting Robertson, 624 F.3d at 784). A habeas
petitioner is entitled to equitable tolling only if he establishes that (1) “he has been pursuing his
rights diligently;” and (2) “some extraordinary circumstance stood in his way and prevented
timely filing.” Id. (quoting Holland, 560 U.S. at 649 (internal quotations omitted)); see also
Pace, 544 U.S. at 418. Although the Sixth Circuit previously utilized a five-factor approach in
determining whether a habeas petitioner is entitled to equitable tolling, Holland’s two-part test
has replaced the five-factor inquiry as the “governing framework” to apply. Hall, 662 F.3d at
750 (citing Robinson v. Easterling, 424 F. App’x 439, 442 n.l (6th Cir. 2011)). “With Holland
now on the books, the ‘extraordinary circumstances’ test, which requires both reasonable
diligence and an extraordinary circumstance, has become the law of this circuit.” Id.; see also
Patterson v. Lafler, 455 F. App’x 606, 609 n.l (6th Cir. 2012).
Petitioner is not entitled to equitable tolling in this case. Petitioner argues that he pursued
his August 2, 2017 post-conviction motion and appeal after discovering the alleged sentencing
error. He further contends that the post-conviction motion was timely and that he filed his
federal habeas petition within one year of the Ohio Supreme Court’s December 12,2018 denial
Of his subsequent appeal. (See Doc. 2 at PagelD 14; Doc. 12 at PagelD 647^19). Although
petitioner claims he was diligent in pursuing relief in the state courts, the Sixth Circuit has
indicated that the relevant inquiry in determining whether equitable tolling applies is whether
7

Case: l:19-cv-00022-DRC-KLL Doc #: 14 Filed: 01/13/20 Page: 8 of 10 PAGEID #: 672

petitioner was diligent in pursuing federal habeas relief. In this case, petitioner waited more than
five years—from August 16, 2013 until December 24, 2018—to file his habeas petition after his
conviction and sentence became final.3 Accordingly, petitioner has not demonstrated that he was
diligent in pursuing his federal rights. Vroman, 346 F.3d at 605 (finding that the petitioner’s
decision to proceed solely in state court “rather than filing his federal habeas petition and
protecting his federal constitutional rights, demonstrates a lack of diligence”). Petitioner is
therefore not entitled to equitable tolling.
Finally, petitioner has neither argued nor otherwise demonstrated that the procedural bar
to review should be excused based on a colorable showing of actual innocence. “To invoke the
miscarriage ofjustice exception to AEDPA’s statute of limitations,... a petitioner ‘must show
that it is more likely than not that no reasonable juror would have convicted him in the light of..
. new evidence.’” McQuiggin v. Perkins, 569 U.S. 383, 399 (2013) (quoting Schlup v. Delo, 513
U.S. 298, 327 (1995)). No such showing has been made in this case.
Accordingly, in sum, the undersigned concludes that the instant federal habeas corpus
petition is barred from review by the one-year statute of limitations governing habeas corpus
actions brought pursuant to 28 U.S.C. § 2254. Under the applicable provision set forth in 28
U.S.C. § 2244(d)(1)(A), petitioner’s conviction and sentence became final on August 15, 2013.
The limitations period ran for 365 days and expired on August 16, 2014. Statutory or equitable
tolling principles do not apply to extend the limitations period or otherwise avoid the statute-oflimitations bar to review in this case. Therefore, petitioner’s habeas corpus petition, filed on

3 Petitioner also waited more than two years—from August 2, 2017 (the date upon which he filed his post-conviction
motion) until December 24, 2018—to file his habeas petition after he claims he discovered the alleged sentencing
error.

8

Case: l:19-cv-00022-DRC-KLL Doc #: 14 Filed: 01/13/20 Page: 9 of 10 PAGEID #: 673

December 24,2018, is time-barred.
IT IS THEREFORE RECOMMENDED THAT:
1. The petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254 (Doc. 2) be
DENIED with prejudice on the ground that the petition is time-barred under 28 U.S.C. §
2244(d).
2. A certificate of appealability should not issue with respect to any of the claims for
relief alleged in the petition, which this Court has concluded are barred from review on a
procedural ground, because under the first prong of the applicable two-part standard enunciated
in Slack v. McDaniel, 529 U.S. 473, 484-85 (2000), “jurists of reason” would not find it
debatable whether the Court is correct in its procedural ruling.4
3. With respect to any application by petitioner to proceed on appeal in forma pauperis,
the Court should certify pursuant to 28 U.S.C. § 1915(a)(3) that an appeal of any Order adopting
this Report and Recommendation would not be taken in “good faith,” and therefore DENY
petitioner leave to appeal in forma pauperis upon a showing of financial necessity. See Fed. R.
App. P. 24(a); Kincade v. Sparkman, 117 F.3d 949, 952 (6th Cir. 1997).

Date:
Karen L. Litkovitz
United States Magistrate Judge

4 Because the first prong of the Slack test has not been met, the Court need not address the second prong of Slack as
to whether “jurists of reason” would find it debatable whether petitioner has stated a viable constitutional claim in
his time-barred grounds for relief. See Slack, 529 U.S. at 484.

9

Case: l:19-cv-00022-DRC-KLL Doc #: 14 Filed: 01/13/20 Page: 10 of 10 PAGEID #: 674

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
Case No. 1:19-cv-22

JAMES SCOTT, JR.,
Petitioner,

Cole, J.
Litkovitz, M.J.

vs.

W ARDEN, LONDON
CORRECTIONAL INSTITUTION,
Respondent.
NOTICE
Pursuant to Fed. R. Civ. P. 72(b), WITHIN 14 DAYS after being served with a copy of
the recommended disposition, a party may serve and file specific written objections to the
proposed findings and recommendations. This period may be extended further by the Court on
timely motion for an extension. Such objections shall specify the portions of the Report objected
to and shall be accompanied by a memorandum of law in support of the objections. If the Report
and Recommendation is based in whole or in part upon matters occurring on the record at an oral
hearing, the objecting party shall promptly arrange for the transcription of the record, or such
portions of it as all parties may agree upon, or the Magistrate Judge deems sufficient, unless the
assigned District Judge otherwise directs. A party may respond to another party’s objections
WITHIN 14 DAYS after being served with a copy thereof. Failure to make objections in
accordance with this procedure may forfeit rights on appeal. See Thomas v. Am, 414 U.S. 140
(1985); United States v. Walters, 638 F.2d 947 (6th Cir. 1981).

10

